 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




MEDICARE COMPLIANCE REVIEW OF
 WING MEMORIAL HOSPITAL FOR
 CALENDAR YEARS 2009 AND 2010



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                  Michael J. Armstrong
                                                Regional Inspector General

                                                       October 2012
                                                       A-01-11-00536
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Wing Memorial Hospital (the Hospital), a member of the UMass Memorial Health Care system,
is a 74-bed hospital located in Palmer, Massachusetts. Medicare paid the Hospital approximately
$36.8 million for 4,369 inpatient and 124,288 outpatient claims for services provided to
beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National Claims
History data.

Our audit covered $749,399 in Medicare payments to the Hospital for 172 claims that we
judgmentally selected as potentially at risk for billing errors. These 172 claims had dates of
service in CYs 2009 and 2010 and consisted of 80 inpatient and 92 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 113 of the 172 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 59 claims, resulting in overpayments totaling $89,257 for
CYs 2009 through 2010. Specifically, 21 inpatient claims had billing errors, resulting in
overpayments totaling $81,644, and 38 outpatient claims had billing errors, resulting in
overpayments totaling $7,613. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $89,257, consisting of $81,644 in overpayments for 21
       incorrectly billed inpatient claims and $7,613 in overpayments for the 38 incorrectly
       billed outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

WING MEMORIAL HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings.
However, the Hospital stated that it plans to appeal 3 of 21 inpatient claims that we found with
billing errors. In addition, the Hospital stated that it has submitted adjustments for the remaining
claims billed in error and has taken steps to strengthen its controls to ensure compliance with
Medicare regulations. The Hospital’s comments are included in their entirety as Appendix B.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Wing Memorial Hospital ...............................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................4

FINDINGS AND RECOMMENDATIONS ..............................................................................5

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrectly Billed as Inpatient ........................................................................................5
          Incorrectly Billed Source-of-Admission ........................................................................5

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................6
          Incorrectly Billed Medical Device Credit ......................................................................6
          Incorrectly Billed Procedures With Modifier-59 ...........................................................6
          Incorrectly Billed to Medicare Instead of the Skilled Nursing Facility .........................7
          Incorrectly Billed Evaluation and Management Services ..............................................7
          Incorrectly Billed Healthcare Common Procedure
            Coding System Codes and Number of Units ..............................................................7
          Incorrectly Billed as Outpatient .....................................................................................8

      RECOMMENDATIONS .......................................................................................................8

      WING MEMORIAL HOSPITAL COMMENTS ..................................................................8

APPENDIXES

      A: RISK AREAS REVIEWED AND BILLING ERRORS

      B: WING MEMORIAL HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after August
1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-service
basis that varies according to the assigned ambulatory payment classification (APC). CMS uses
Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to identify and
group the services within each APC group. 3 All services and items within an APC group are
comparable clinically and require comparable resources.


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC). This transition occurred between October 2005 and October 2011. Most, but not all, of the MACs are fully
operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers
continue to process claims. For the purposes of this report, the term “Medicare contractor” means fiscal
intermediary, carrier, or MAC, whichever is applicable.
2
    In 2009 SCHIP was formally renamed as the Children’s Health Insurance Program.
3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                        1
Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. Examples of these types of claims at risk for noncompliance included the
following:

    •   inpatient short stays,

    •   inpatient claims paid in excess of charges,

    •   inpatient transfers,

    •   inpatient psychiatric facility (IPF) emergency department adjustments,

    •   inpatient hospital-acquired conditions and present on admission indicator reporting,

    •   outpatient manufacturer credits for replaced medical devices,

    •   outpatient claims billed with modifiers,

    •   outpatient claims billed during a skilled nursing facility (SNF) stay,

    •   outpatient claims billed with evaluation and management (E&M) services,

    •   outpatient surgeries with billed units greater than one,

    •   outpatient claims billed during an inpatient stay, and

    •   outpatient claims paid in excess of charges.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.



                                                   2
Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.

The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Wing Memorial Hospital

Wing Memorial Hospital (the Hospital), a member of the UMass Memorial Health Care system,
is a 74-bed hospital located in Palmer, Massachusetts. Medicare paid the Hospital approximately
$36.8 million for 4,369 inpatient and 124,288 outpatient claims for services provided to
beneficiaries during calendar years (CY) 2009 and 2010 based on CMS’s National Claims
History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $749,399 in Medicare payments to the Hospital for 172 claims that we
judgmentally selected as potentially at risk for billing errors (see the Appendix A). These 172
claims had dates of service in CYs 2009 and 2010 and consisted of 80 inpatient and 92 outpatient
claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected only a limited number of claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from January through March 2012.

                                                 3
Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2009 and 2010;

   •   obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers for CYs 2009 and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 172 claims (80 inpatient and 92 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of the sampled claims to determine
       whether the services were billed correctly;

   •   reviewed the Hospital’s procedures for assigning HCPCS codes and submitting Medicare
       claims;

   •   used Medicare contractor medical review staff to determine whether a limited selection of
       sampled claims met medical necessity requirements;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                                                4
                               FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 113 of the 172 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 59 claims, resulting in overpayments totaling $89,257 for
CYs 2009 and 2010. Specifically, 21 inpatient claims had billing errors, resulting in
overpayments totaling $81,644, and 38 outpatient claims had billing errors, resulting in
overpayments totaling $7,613. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 21 of 80 sampled inpatient claims, which resulted in
overpayments totaling $81,644.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.”

For 19 of 80 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. The
Hospital attributed most of these errors to improper physician determinations to admit to
inpatient care. As a result of these errors, the Hospital received overpayments totaling $81,442. 4

Incorrectly Billed Source-of-Admission

Pursuant to 42 CFR § 412.424, CMS increases the Federal per diem rate for the first day of a
Medicare beneficiary’s IPF stay to account for the costs associated with maintaining a qualifying
emergency department. CMS makes this additional payment regardless of whether the
beneficiary used emergency department services. However, the IPF should not receive the
additional payment if the beneficiary was discharged from the acute-care section of the same
hospital.

The Manual, chapter 3, section 190.6.4.1, states that source-of-admission code “D” is reported
by an IPF to identify patients who have been transferred to the IPF from the same hospital. The
IPF’s proper use of this code is intended to alert the Medicare contractor not to apply the
emergency department adjustment.

For 2 of 80 sampled claims, the Hospital incorrectly coded the source-of-admission for
beneficiaries who were admitted to the IPF upon discharge from the Hospital’s acute-care
section. The Hospital stated that these overpayments occurred because of clerical errors in

4
 The Hospital may bill Medicare Part B for a limited range of services related to some of these 19 incorrect Part A
claims. We were unable to determine the effect that billing Medicare Part B would have on the overpayment
amount because these services had not been billed or adjudicated by the MAC prior to the issuance of our report.

                                                         5
coding the admission source on the IPF claims. As a result of these errors, the Hospital received
overpayments totaling $202.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 38 of 92 sampled outpatient claims, which resulted
in overpayments totaling $7,613.

Incorrectly Billed Medical Device Credit

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

CMS guidance in Transmittal 1103, dated November 3, 2006, and in the Manual, chapter 4,
section 61.3, explains how a provider should report no-cost and reduced-cost devices under the
OPPS. For services furnished on or after January 1, 2007, CMS requires the provider to report
the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device.

For 1 of 92 sampled claims, the Hospital received full credit for a replaced device but did not
report the “FB” modifier and reduced charges on its claim. The Hospital stated that this credit
went unreported because it did not establish adequate procedures for coordinating functions
among the various departments (i.e., accounts payable, patient accounts, and Medicare billing) to
ensure that it submitted claims with the appropriate modifier and reduced charges to initiate
reduced payments for credits received from manufacturers. As a result of this error, the Hospital
received overpayments totaling $5,182.

Incorrectly Billed Procedures With Modifier -59

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. In addition, the Manual,
chapter 1, section 80.3.2.2, states: “In order to be processed correctly and promptly, a bill must
be completed accurately.”

The Manual, chapter 23, section 20.9.1.1, states: “The ‘-59’ modifier is used to indicate a
distinct procedural service …. This may represent a different session or patient encounter,
different procedure or surgery, different site, or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries).”

For 18 of 92 sampled claims, the Hospital billed Medicare for HCPCS codes, appended with
modifier -59, that were incorrect for the services provided. The Hospital attributed these errors



                                                   6
to human error and misinterpretation of coding guidelines. As a result of these errors, the
Hospital received overpayments totaling $905.

Incorrectly Billed to Medicare Instead of the Skilled Nursing Facility

Under the consolidated billing provisions of sections 1862(a)(18) and 1842(b)(6)(E) of the Act,
SNFs are responsible for billing Medicare for most services, including outpatient hospital
services, provided to a SNF resident during a covered Part A stay. Pursuant to the interim final
rule implementing the SNF consolidated billing requirement, outside suppliers, including
outpatient hospitals, must bill according to the consolidated billing provisions for services
furnished to SNF residents and must be paid by the SNF rather than by Medicare Part B.

For 7 of 92 sampled claims, the Hospital incorrectly billed Medicare Part B rather than the
appropriate SNFs for services that were subject to the consolidated billing provisions of the Act
and that had been included in Medicare Part A prospective payments to the SNFs. In each of
these cases, the Medicare program paid twice for the same service: once to the SNF through the
Part A prospective payment and to the Hospital through Part B. The Hospital stated these errors
occurred because it did not always identify the beneficiary’s point of origin. As a result of these
errors, the Hospital received overpayments totaling $534.

Incorrectly Billed Evaluation and Management Services

The Manual, chapter 12, section 30.6.6(B), states that a Medicare contractor pays for an E&M
service that is significant, separately identifiable, and above and beyond the usual preoperative
and postoperative work of the procedure.

For 8 of 92 sampled claims, the Hospital incorrectly billed Medicare for E&M services that were
part of the usual preoperative or postoperative work of the procedure. The incorrectly billed
services were associated with drug injection (four errors) and Unna boot (four errors) procedures.
The Hospital was not eligible for the E&M payments since the services that the physician
performed were not significant, separately identifiable, and above and beyond the usual
preoperative and postoperative work. The Hospital attributed most of these errors to human
error and misinterpretation of coding guidelines. As a result of these errors, the Hospital
received overpayments totaling $437.

Incorrectly Billed Healthcare Common Procedure Coding System Codes and Number of
Units

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. The Manual, chapter 1, section
80.3.2.2, states: “In order to be processed correctly and promptly, a bill must be completed
accurately.” In addition, chapter 4, section 20.4, of the Manual states: “The definition of service
units … is the number of times the service or procedure being reported was performed.”

For 1 of 92 sampled claims, the Hospital submitted the claim to Medicare with incorrect HCPCS
codes and number of units for procedures related to the excision of lesions. The Hospital stated

                                                 7
that the overpayment occurred due to clerical errors that went undetected. As a result of these
errors, the Hospital received an overpayment of $324.

Incorrectly Billed as Outpatient

The Manual, chapter 3, section 10.4, states that Part A covers certain items and nonphysician
services furnished to inpatients and consequently the inpatient prospective payment rate covers
these services.

For 3 of 92 sampled claims, the Hospital incorrectly billed Medicare Part B for outpatient
services provided during inpatient stays. These services should have been included on the
Hospital’s inpatient (Part A) claims to Medicare. The Hospital attributed the incorrect billing to
human error in the application of Medicare guidelines. As a result of these errors, the Hospital
received overpayments totaling $231.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $89,257 consisting of $81,644 in overpayments for 21
       incorrectly billed inpatient claims and $7,613 in overpayments for 38 incorrectly billed
       outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

WING MEMORIAL HOSPITAL COMMENTS

In written comments on our draft report, the Hospital generally concurred with our findings.
However, the Hospital stated that it plans to appeal 3 of 21 inpatient claims that we found with
billing errors. In addition, the Hospital stated that it has submitted adjustments for the remaining
claims billed in error and has taken steps to strengthen its controls to ensure compliance with
Medicare regulations. The Hospital’s comments are included in their entirety as Appendix B.




                                                 8
APPENDIXES
               APPENDIX A: RISK AREAS REVIEWED AND BILLING ERRORS

                                                    Sampled    Claims With     Value of
Risk Area                                            Claims   Overpayments   Overpayments
Inpatient Short Stays                                 17           12          $39,425

Inpatient Claims Paid in Excess of Charges             9           2           $24,354

Inpatient Transfers                                   41           5           $17,663
Inpatient Psychiatric Facility Emergency
                                                       3           2             $202
Department Adjustments
Inpatient Hospital-Acquired Conditions and
                                                      10           0              $0
Present on Admission Indicator Reporting
Totals                                                80           21          $81,644


Outpatient Manufacturer Credits for Replaced
                                                       7           1            $5,182
Medical Devices
Outpatient Claims Billed With Modifiers               44           18            $905
Outpatient Claims Billed During a Skilled Nursing
                                                       7           7             $534
Facility Stay
Outpatient Claims Billed With Evaluation and
                                                      18           8             $437
Management Services
Outpatient Surgeries With Billed Units Greater
                                                       3           1             $324
Than One
Outpatient Claims Billed During an Inpatient Stay      7           3             $231

Outpatient Claims Paid In Excess of Charges            6           0              $0

Totals                                                92           38           $7,613
                      APPENDIX B: WING MEMORIAL HOSPITAL COMMENTS 

                                                                                                           Page 1 of3
  •      Wing Memorial                                                                                   40 Wright Street

· '1    Hospital and Medical Centers
        A Member of UMass Memorial Health Care
                                                                                                         Palmer, MA 01069
                                                                                                         Tel: 413-283-7651




       September 24,2012



       Michael J. Annstrong
       Regional Inspector General for Audit Services
       Department of Health and Human Services
       Office of Audit Services, Region I
       John F. Kennedy Federal Building
       15 New Sudbury Street, Room 2425
       Boston, MA 02203

       Re:     Report Number A-Ol-II-00536

       Dear Mr. Armstrong:

       Thank you for the opportunity to respond to the draft Medicare Compliance Review o/Wing
       Memorial Hospital/or Calendar Years 2009 and 2010, prepared by the Office of Inspector
       General (OIG) based on a review conducted of 13 identified risk areas for compliance with
       Medicare hospital billing requirements. Wing Memorial Hospital and UMass Memorial Health
       Care system Compliance Offices have reviewed the draft report, and generally concur with the
       findings, with exceptions noted below.

       As stated in the report, l72 claims with dates of service in calendar years 2009 and 2010 were
       jUdgmentally selected as potentially at risk for billing errors, including 80 inpatient and 92
       outpatient claims. Originally, 41 of these inpatient cases were identified by the auditors as at risk
       for potential non-compliance with the Medicare Post Acute Transfer rules, and nine (9) were
       selected for review because payments exceeded charges. No compliance issues were identified
       related to these risk areas. However, the auditors requested that the Hospital further review these
       cases for the appropriateness of the level of care billed. The auditors concluded that 21 out of the
       80 inpatient cases reviewed were billed in error, due to inappropriate determinations regarding
       the level of care. We disagree with the findings of the OIG and the Fiscal Intermediary reviewer
       in 3 of these cases, which we plan to appeal. We agree that the remaining 18 inpatient claims
       reviewed were billed in error. In addition, we agree with the auditors' findings that 38 out of the
       92 outpatient hospital claims reviewed were determined to be billed in error.

       Wing Memorial Hospital has substantially complied with the recommendation to refund our
       Fiscal Intermediary (FI) $89,257 in overpayments based on these findings. To date, Wing



                 Wing Medical Centers Belchertown, MA • Ludlow, MA • Monson, MA • Palmer, MA • Wilbraham, MA
                                                                                       Page 2 of3
September 24, 2012
Mr. Michael Armstrong
Page 2

Memorial Hospital has submitted adjusted claims for all agreed upon identified errors, and is
awaiting the final return remittance advice statements to confirm processing of these refunds by
the FI.

In addition, Wing Memorial Hospital has taken the following actions to strengthen controls to
ensure full compliance with the Medicare requirements:

Short Stays Incorrectly Billed As Inpatient Claims
   • 	 Continued ongoing physiCian education regarding the appropriate application of
       Medicare criteria for inpatient admission level ofcare determinations. Wing Memorial
       Hospital is also in the process ofimplementing a new software system designed to
       facilitate accurate level ofcare determinations through systematic application of
        inpatient criteria. Additionally, the Hospital has developed a staffing and hiring plan to
        improve case management coverage on weekends.

Admission Source Codes
  • 	 Developed a report to assist in identifying discharges and admissions to a different unit
      ofthe hospital on the same day. This report includes the admission source codejor the
      second admission. and is used as an additional layer ofreview.

Medical Device Credits
  • 	 Wing had identified this potential risk area and updated its process for confirming
      Device Credits from the Manufacturer by tracking explanted devices and responses to
      Warranty Claim Forms prior to the start ofthis audit. Additionally, Wing has
      implemented a process to monitor the central AlP syst(fm for credits applicable to devices
      explanted at Wing.

Outpatient Claims Billed with Modifiers (59 and 91)
   • 	 Educated Coding Staffwith respect to the applicable coding, Medicare National Correct
       Coding initiative guidance, and the appropriate use ofModifier 59. Education
       specifically addressed how those rules apply to bone marrow aspirations performed at
       the same site and on the same day as a bone marrow biopsy - the one type ofModifier 59
       billing error identified in this review. There were no errors identified with respect to the
       OIG's review ofclaims sampled with Modifier 91.

Skilled Nursing Facility Consolidated Billing

   • 	 Edits to the Registration Module ofthe hospital's computer system are under
       development. Training with respect to the data entry requirements for these new fields in
       the hospital's registration module, and the corresponding steps in the registration
       process will be provided to all registration staffresponsible for registering outpatient
       clinic visits.
                                                                                  Page 3 of3
September 24, 2012
Mr. Michael Armstrong
Page 3


Evaluation and Management Services Billed·with Modifier 25
   • 	 The Hospital has enhanced its Encounter Form Quality Review process and developed a
       formal documented procedure, which includes a review by the Nurse Manager who
       oversees each clinic and the Operations Manager for the Multi-Specialty Clinics.
       Additionally, all ofthese stajJwere provided re-education regarding Modifier 25 coding
       and CMS guidelines. In addition, the outpatient certified Coding StajJ now review all
       physician documentation for encounters that include an outpatient procedure and ElM
       coded on the same date ofservice to ensure appropriate use ofModifier 25.

Incorrectly Billed HCPCS Codes and Number of Units Associated with certain Outpatient
Procedures
   • 	 Although there were multiple units associated with one particular HCPCS code on the
       claim that was found to be in error, the number ofunits was not considered medically
       unlikely as the HCPCS code on the claim in question was a surgical excision code, which
       can be appropriately associated with multiple units. The Hospital will continue to
       perform routine Quality Assurance Reviews ofoutpatient coding, and will specifically
       include encounters that contained HCPCS codes representing excision procedures in the
       samples to be reviewed

Outpatient Services Billed During the 3 Day DRG Payment Window
  • 	 Re-education for billing stajJ with respect to MLN Matters Number: MM7142- Related
      Change Request Number: 7142, specifically the requirement that services provided by the
      hospital, on the same date ofthe inpatient admission, are deemed related to the
      admission and are not separately billable. StajJwere also re-educated with respect to the
      list ofdiagnostic revenue codes subject to the 3 Day Payment Rule.

Wing Memorial Hospital is committed to strengthening its internal controls to ensure compliance
with Medicare billing requirements. Accordingly, the hospital will continue to enhance the
monitoring and internal auditing functions of its Compliance Program with support from the
UMass Memorial Health Care Compliance Office.

Sincerely,

(~~~~I~
Janice Kucewicz, SVP & Chief Compliance Officer
Wing Memorial Hospital & Medical Centers
